          DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                    Office of Inspector General



                                                                                     Washington, D.C. 20201



                                           ;APR 2.2010


TO: 	            Marilyn Tavenner
                 Acting Administrator and Chief Operating Officer
                 Centers for Medicare & Medicaid Services

                               /S/
FROM:            Stuart Wright
                 Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Comparison ofThird-Quarter 2009 Average Sales Prices
           and Average Manufacturer Prices: Impact on Medicare Reimbursementfor First
           Quarter 2010, OEI-03-10-00150


This review was conducted in accordance with the statutory mandate for the Office of Inspector
General (OIG) to review average sales prices (ASP) and average manufacturer prices (AMP) for
Medicare Part B prescription drugs and identify ASPs that exceed AMPs by at least
5 percent. The review also determined the impact of lowering reimbursement amounts for drugs
that meet the 5-percent threshold.

Since the advent of the ASP reimbursement methodology in 2005, OIG has issued 15 reports
comparing ASPs to AMPs. This latest pricing comparison examines drugs that met the 5-percent
threshold based on either complete or partial AMP data in the third quarter of2009. Of the
356 drugs with complete AMP data in that quarter, 16 met the 5-percent threshold. Eight of
these sixteen drugs were also eligible for price adjustments in one or more of the previous four
quarters, with three drugs meeting the 5-percent threshold in all five quarters under review. If
reimbursement amounts for all 16 drugs had been based on 103 percent of the AMPs, we
estimate that Medicare expenditures would have been reduced by over half a million dollars in
the first quarter of 20 10. Of the 99 drugs with only partial AMP data in the third quarter of 2009,
10 had ASPs that exceeded the AMPs by at least 5 percent. Six of these ten drugs also met the
5-percent threshold in at least one of the previous four quarters. We estimate that Medicare
expenditures would have been reduced by $2.1 million during the first quarter of2010 if
reimbursement amounts for all 10 drugs had been based on 103 percent of the AMPs. We could
not perform pricing comparisons for an additional 66 drugs because none of the drug products
used to establish Medicare reimbursement had corresponding AMP data. Manufacturers for
16 percent of those drug products had Medicaid drug rebate agreements and were therefore
generally required to submit AMPs. OIG will continue to work with the Centers for Medicare &
Medicaid Services (CMS) to evaluate and pursue appropriate actions against those manufacturers
that fail to submit required data.




OEI -03-10-00150 	                               Comparison of Third-Quarter 2009 ASPs and AMPs
Page 2 – Marilyn Tavenner


BACKGROUND

Section 1847A(d)(2)(B) of the Social Security Act (the Act) mandates that OIG compare ASPs
to AMPs. If OIG finds that the ASP for a drug exceeds the AMP by a certain percentage
(currently 5 percent), section 1847A(d)(3)(A) of the Act states that the Secretary of the
Department of Health & Human Services (the Secretary) may disregard the ASP for the drug
when setting reimbursement amounts. 1 Section 1847A(d)(3)(C) of the Act goes on to state that
“… the Inspector General shall inform the Secretary (at such times as the Secretary may specify
to carry out this subparagraph) and the Secretary shall, effective as of the next quarter, substitute
for the amount of payment … the lesser of (i) the widely available market price … (if any); or
(ii) 103 percent of the average manufacturer price…”

Medicare Part B Coverage of Prescription Drugs
Medicare Part B covers only a limited number of outpatient prescription drugs. Covered drugs
include injectable drugs administered by a physician; certain self-administered drugs, such as
oral anticancer drugs and immunosuppressive drugs; drugs used in conjunction with durable
medical equipment; and some vaccines.

Medicare Part B Payments for Prescription Drugs
CMS contracts with private companies, known as Medicare Administrative Contractors (MAC),
to process and pay Medicare Part B claims, including those for prescription drugs. To obtain
reimbursement for covered outpatient prescription drugs, health care providers submit claims to
their MACs using procedure codes. CMS established the Healthcare Common Procedure
Coding System (HCPCS) to provide a standardized coding system for describing the specific
items and services provided in the delivery of health care. In the case of prescription drugs, each
HCPCS code defines the drug name and the amount of drug represented by the HCPCS code but
does not specify manufacturer or package size information.

Medicare and its beneficiaries spent over $11 billion for Part B drugs in 2008. 2 Although
Medicare paid for more than 700 outpatient prescription drug HCPCS codes that year, most of
the spending for Part B drugs was concentrated on a relatively small subset of those codes. In
2008, 60 codes accounted for 90 percent of the expenditures for Part B drugs, with only 12 of
these drugs representing the majority (51 percent) of total Part B drug expenditures.

Reimbursement Methodology for Part B Drugs and Biologicals
Medicare Part B pays for most covered drugs using a reimbursement methodology based on
ASPs. 3 Section 1847A(c) of the Act, as added by the Medicare Prescription Drug, Improvement,
and Modernization Act of 2003, P.L. 108-173, defines an ASP as a manufacturer’s sales of a

1
  Section 1847A(d)(3)(B)(ii) of the Act provides the Secretary with authority to adjust the applicable threshold
percentage in 2006 and subsequent years; however, the threshold percentage has been maintained at 5 percent.
2
  Medicare expenditures for Part B drugs in 2008 were calculated using CMS’s Part B Analytics and Reports
(PBAR). The PBAR data were downloaded on July 8, 2009.
3
  Several Part B drugs, including certain vaccines and blood products, are not paid under the ASP methodology.



OEI-03-10-00150                                               Comparison of Third-Quarter 2009 ASPs and AMPs
Page 3 – Marilyn Tavenner


drug to all purchasers in the United States in a calendar quarter divided by the total number of
units of the drug sold by the manufacturer in that same quarter. The ASP is net of any price
concessions, such as volume discounts, prompt pay discounts, cash discounts, free goods
contingent on purchase requirements, chargebacks, and rebates other than those obtained through
the Medicaid drug rebate program. 4 Sales that are nominal in amount are exempted from the
ASP calculation, as are sales excluded from the determination of “best price” in the Medicaid
drug rebate program. 5, 6

Manufacturers report ASPs by 11-digit national drug codes (NDC), each of which identifies a
specific manufacturer, product, and package size. Manufacturers must provide CMS with the
ASP and volume of sales for each NDC on a quarterly basis, with submissions due 30 days after
the close of each quarter. 7

Because Medicare Part B reimbursement for outpatient drugs is based on HCPCS codes rather
than NDCs and more than one NDC may meet the definition of a particular HCPCS code, CMS
has developed a file that “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
information in this crosswalk file to calculate volume-weighted ASPs for covered HCPCS codes.

Calculation of Volume-Weighted Average Sales Prices
First-quarter 2010 Medicare payments for most covered drug codes were based on
third-quarter 2009 ASP submissions from manufacturers, which were volume-weighted using an
equation that involves the following variables: the ASP for the 11-digit NDC as reported by the
manufacturer, the volume of sales for the NDC as reported by the manufacturer, and the number
of billing units in the NDC as determined by CMS. 8 The amount of the drug contained in an
NDC may differ from the amount of the drug specified by the HCPCS code that providers use to
bill Medicare. Therefore, the number of billing units in an NDC describes the number of
HCPCS code units that are in that NDC. For instance, an NDC may contain a total of
10 milliliters of Drug A, but the corresponding HCPCS code may be defined as only 5 milliliters
of Drug A. In this case, there are two billing units in the NDC. CMS calculates the number of
billing units in each NDC when developing its crosswalk files.

Under the ASP pricing methodology, the Medicare allowance for most Part B drugs is equal to
106 percent of the volume-weighted ASP for the HCPCS code. Medicare beneficiaries are
responsible for 20 percent of this amount in the form of coinsurance.


4
  Section 1847A(c)(3) of the Act.
5
  Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available from the manufacturer
during the rebate period to any wholesaler, retailer, provider, health maintenance organization, nonprofit entity, or
governmental entity within the United States, with certain exceptions.
6
  Section 1847A(c)(2) of the Act.
7
  Section 1927(b)(3) of the Act.
8
  The equation that CMS currently uses to calculate volume-weighted ASPs is described in section 1847A(b)(6) of
the Act. It is also provided in Appendix A.




OEI-03-10-00150                                                Comparison of Third-Quarter 2009 ASPs and AMPs
Page 4 – Marilyn Tavenner


The Medicaid Drug Rebate Program and Average Manufacturer Prices
For Federal payment to be available for covered outpatient drugs provided under Medicaid,
sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter into rebate
agreements with the Secretary and pay quarterly rebates to State Medicaid agencies. Under these
rebate agreements and pursuant to section 1927(b)(3) of the Act, manufacturers must provide
CMS with the AMPs for each of their NDCs. As further explained in regulation, manufacturers
are required to submit AMPs within 30 days after the end of each month and each quarter. 9

As generally defined in section 1927(k)(1) of the Act, the AMP is the average price paid to the
manufacturer for the drug in the United States by wholesalers for drugs distributed to the retail
pharmacy class of trade. 10 The AMP is generally calculated as a weighted average of prices for
all of a manufacturer’s package sizes of a drug and is reported for the lowest identifiable quantity
of the drug (e.g., 1 milliliter, 1 tablet, 1 capsule). 11

If a manufacturer fails to provide AMP data in a timely manner, civil monetary penalties may be
imposed. 12 In addition, pursuant to section 1927(b)(4)(B)(i) of the Act, the Secretary may
terminate a rebate agreement “for violation of the requirements of the agreement or other good
cause shown.” CMS has terminated rebate agreements with a number of manufacturers for
failure to report drug-pricing data as required by section 1927 of the Act. For the purposes of
evaluating potential civil monetary penalty actions, CMS has also provided OIG with
information about manufacturers that failed to submit drug-pricing data.

Office of Inspector General’s Monitoring of Average Sales Prices and Average
Manufacturer Prices
In accordance with its statutory mandate, OIG has issued 13 quarterly pricing comparisons since
the ASP reimbursement methodology for Part B drugs was implemented in January 2005. In
addition, OIG completed two annual overviews of ASPs and AMPs, which examined data across
all four quarters of 2007 and 2008, respectively. A list of all 15 reports is provided in
Appendix B.

Although CMS has acknowledged the Secretary’s authority to adjust ASP payment limits based
on the findings of OIG’s pricing comparisons, CMS has yet to make any changes to Part B drug
reimbursement as a result of these studies. Rather, CMS has emphasized both the complexity of
substituting payment amounts and the importance of proceeding cautiously to avoid unintended
consequences. 13 In commenting on OIG’s reports, CMS has expressed a desire to both better

9
  42 CFR § 447.510.
10
   Effective October 2010, the Patient Protection and Affordable Care Act, P.L. 111-148, changes the definition of
AMP in a way that is not relevant for the purposes of this report. However, it may impact pricing comparisons
between ASPs and AMPs for the fourth quarter of 2010 and beyond.
11
   As specified in 42 CFR § 447.504(i), a quarterly AMP is calculated as a weighted average of monthly AMPs in
the quarter. However, the manufacturer must adjust the AMP for a quarter if cumulative discounts, rebates, or other
arrangements subsequently adjust the prices actually realized.
12
   Pursuant to section 1927(b)(3)(C) of the Act.
13
   See CMS comments to OEI-03-08-00450, December 2008; and OEI-03-09-00350, February 2010.



OEI-03-10-00150                                              Comparison of Third-Quarter 2009 ASPs and AMPs
Page 5 – Marilyn Tavenner


understand fluctuating differences between ASPs and AMPs and engage stakeholders, with the
intent of developing a process for making price substitutions. 14 However, CMS has not specified
what, if any, steps it will take to adjust Medicare reimbursement amounts for drugs that meet the
5-percent threshold.

OIG will continue to meet its statutory mandate by issuing reports based on quarterly pricing
comparisons, along with annual overviews to summarize findings across each calendar year.

METHODOLOGY

We obtained a file from CMS containing NDC-level ASP data from the third quarter of 2009,
which were used to establish Part B drug reimbursement amounts for the first quarter of 2010.
This file also includes information that crosswalks NDCs to their corresponding HCPCS codes.
Both the ASP data and the crosswalk data were current as of December 23, 2009. We also
obtained AMP data from CMS for the third quarter of 2009, which were current as of
November 4, 2009.

Analysis of Average Sales Price Data From the Third Quarter of 2009
As mentioned previously, Medicare does not base reimbursement for covered drugs on NDCs;
instead, it uses HCPCS codes. Therefore, CMS uses ASP information submitted by
manufacturers for each NDC to calculate a volume-weighted ASP for each covered HCPCS
code. When calculating these volume-weighted ASPs, CMS includes only NDCs with ASP
submissions that are deemed valid.

As of January 2010, CMS had established prices for 530 HCPCS codes based on the ASP
reimbursement methodology mandated by section 1847A(b)(6) of the Act. Reimbursement
amounts for the 530 HCPCS codes were based on ASP data for 3,251 NDCs.

Analysis of Average Manufacturer Price Data From the Third Quarter of 2009
To ensure that the broadest range of drug codes is subject to OIG’s pricing comparisons, we
divided HCPCS codes into the following three groups:

       (1) HCPCS codes with complete AMP data—i.e., HCPCS codes with AMP data for
           every NDC that CMS used in its calculation of volume-weighted ASPs;

       (2) HCPCS codes with partial AMP data—i.e., HCPCS codes with AMP data for only
           some of the NDCs that CMS used in its calculation of volume-weighted ASPs; and

       (3) HCPCS codes with no AMP data—i.e., HCPCS codes with no AMP data for any of
           the NDCs that CMS used in its calculation of volume-weighted ASPs.


14
  See CMS comments to OEI-03-07-00140, July 2007; OEI-03-08-00450, December 2008; and OEI-03-09-00350,
February 2010.



OEI-03-10-00150                                        Comparison of Third-Quarter 2009 ASPs and AMPs
Page 6 – Marilyn Tavenner


As previously noted, the AMP for each NDC is reported for the lowest identifiable quantity of
the drug contained in that NDC (e.g., 1 milliliter, 1 tablet, 1 capsule). In contrast, the ASP is
reported for the entire amount of the drug contained in the NDC (e.g., 50 milliliters, 100 tablets).
To ensure that the AMP would be comparable to the ASP, it was necessary to convert the AMP
for each NDC so that it represented the total amount of the drug contained in that NDC.

To calculate “converted AMPs” for NDCs in the first and second groups, we multiplied the AMP
by the total amount of the drug contained in each NDC, as identified by sources, such as the
CMS crosswalk file, manufacturer Web sites, the “Red Book,” and the Food and Drug
Administration’s NDC directory. 15 For certain NDCs, we were unable to successfully identify
the amount of the drug reflected by the ASP and therefore could not calculate a converted AMP.
Because of these unsuccessful AMP conversions, a total of nine HCPCS codes were removed
from our analysis.

Using NDCs with successful AMP conversions, we then calculated a volume-weighted AMP for
each of the corresponding HCPCS codes, consistent with CMS’s methodology for calculating
volume-weighted ASPs. Appendix C provides a more detailed description of the methods we
used to both convert AMPs and calculate volume-weighted AMPs. Table 1 provides the final
number of HCPCS codes and NDCs included in our analysis after we removed NDCs with either
no AMP data or unsuccessful AMP conversions.

Table 1: Number of Drug Codes and NDCs Included in OIG’s Pricing Comparison
                                                                                   Number of        Number of
 Availability of AMP Data for HCPCS Code
                                                                                HCPCS Codes            NDCs

 Complete AMP Data                                                                       356            1,425

 Partial AMP Data                                                                         99             987

 No AMP Data                                                                              66             244

Source: OIG analysis of third-quarter 2009 ASP and AMP data, 2010.


Comparing Third-Quarter 2009 Volume-Weighted ASPs to Volume-Weighted AMPs
For each of the HCPCS codes included in our study, we compared the volume-weighted ASP
and AMP and determined whether the ASP for the code exceeded the AMP by at least
5 percent.

For those HCPCS codes that met or exceeded the 5-percent threshold, we reviewed the
associated NDCs to verify the accuracy of the billing unit information. According to our review,
NDCs for two codes had billing unit information in CMS’s crosswalk file that may not have
accurately reflected the number of billing units actually contained in the NDC. Because
volume-weighted ASPs and AMPs are calculated using this billing unit information, we could
not be certain that the results for these codes were correct. Therefore, we did not consider these
two HCPCS codes as having met the 5-percent threshold.
15
     We did not calculate converted AMPs for NDCs in the third group because those NDCs had no AMP data.



OEI-03-10-00150                                                      Comparison of Third-Quarter 2009 ASPs and AMPs
Page 7 – Marilyn Tavenner


For the remaining HCPCS codes, we then estimated the monetary impact of lowering
reimbursement to 103 percent of the AMP. 16 For each of the HCPCS codes that met the
5-percent threshold, we calculated 103 percent of the volume-weighted AMP and subtracted this
amount from the first-quarter 2010 reimbursement amount for the HCPCS code, which is equal
to 106 percent of the volume-weighted ASP. To estimate the financial effect for the first quarter
of 2010, we then multiplied the difference by one-fourth of the number of services that were
allowed by Medicare for each HCPCS code in 2008, as reported in the PBAR. 17 This estimate
assumes that the number of services that were allowed by Medicare in 2008 remained consistent
from one quarter to the next and that there were no significant changes in utilization between
2008 and 2010.

Identifying Codes That Would Have Met the 5-Percent Threshold in Previous Quarters
We determined whether codes meeting the 5-percent threshold in the third quarter of 2009 would
have also met the 5-percent threshold in any of the four previous quarters, dating back to the
third quarter of 2008.

Limitations
We did not verify the accuracy of manufacturer-reported ASP and AMP data, nor did we verify
the underlying methodology used by manufacturers to calculate ASPs and AMPs. Furthermore,
we did not verify the accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
exclude from its calculation of Part B drug reimbursement amounts.

Manufacturers are required to submit their quarterly ASP and AMP data to CMS 30 days after
the close of the quarter. Our analyses were performed on ASP and AMP data compiled by CMS
soon after that deadline. We did not determine whether manufacturers provided additional or
revised pricing data to CMS at a later date.

Standards
This study was conducted in accordance with the Quality Standards for Inspections approved by
the Council of the Inspectors General on Integrity and Efficiency.




16
   Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts for drugs that meet the
5-percent threshold with the lesser of the widely available market price for the drug (if any) or 103 percent of the
AMP. For the purposes of this study, we used 103 percent of the AMP to estimate the impact of lowering
reimbursement amounts. If widely available market prices had been available for these drugs and lower than
103 percent of the AMP, the savings estimate presented in this report would have been greater.
17
   The 2008 PBAR data were downloaded on July 8, 2009.



OEI-03-10-00150                                                Comparison of Third-Quarter 2009 ASPs and AMPs
Page 8 – Marilyn Tavenner


RESULTS

Of the 356 Drug Codes With Complete AMP Data, Volume-Weighted ASPs for
16 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs to
AMPs to identify instances in which the ASP for a particular drug exceeded the AMP by a
threshold of 5 percent. In the third quarter of 2009, 16 of the 356 HCPCS codes with complete
AMP data (4 percent) met this 5-percent threshold. A list of the 16 HCPCS codes, including
their descriptions and HCPCS dosage amounts, is presented in Appendix D.

Table 2 describes the extent to which ASPs exceeded AMPs for the 16 HCPCS codes. For two
of the codes, volume-weighted ASPs exceeded volume-weighted AMPs by 20 percent or more.

                       Table 2: Extent to Which ASPs Exceeded AMPs for
                           16 HCPCS Codes With Complete AMP Data
                         Percentage by Which ASP             Number of HCPCS
                         Exceeded AMP                                   Codes
                         5.00%–9.99%                                         12
                         10.00%–19.99%                                         2
                         20.00%–29.99%                                         1
                         30.00%–39.99%                                         0
                         40.00%–49.99%                                         0
                         50.00%–59.99%                                         0
                         60.00%–69.99%                                         1
                         70.00%–79.99%                                         0
                         80.00%–89.99%                                         0
                         90.00%–99.99%                                         0
                         100% and above                                        0
                            Total                                            16

                      Source: OIG analysis of third-quarter 2009 ASP and AMP data, 2010.


Half of the HCPCS codes (8 of 16) also met the 5-percent threshold in one or more of the
previous four quarters. The ASPs for HCPCS codes J0560, J1364, and J2765 exceeded the
AMPs in each of the five quarters under review, dating back to the third quarter of 2008. An
additional two HCPCS codes met the 5-percent threshold in at least three of the five quarters
under review. Table 3 presents a list of the eight HCPCS codes that were eligible for price
adjustments in previous quarters.




OEI-03-10-00150                                            Comparison of Third-Quarter 2009 ASPs and AMPs
Page 9 – Marilyn Tavenner


        Table 3: Eight HCPCS Codes With Complete AMP Data in the Third Quarter of 2009
                   That Also Met the 5-Percent Threshold in Previous Quarters
                                                 OIG Reports Comparing ASP and AMP
                                         Third      Second         First       Fourth       Third
                        HCPCS
                                       Quarter      Quarter      Quarter      Quarter     Quarter
                        Code
                                         2009         2009         2009          2008       2008

                        J0560             X           X*           X*          X*           X*
                        J1364             X           X            X            X            X
                        J2765             X           X            X            X            X
                        J2597             X           X            X            X
                        J2792             X           X                         X            X
                        J2993             X           X
                        J3470             X                        X
                        J9340             X                                     X
         *These codes previously met the 5-percent threshold during the specified quarters based on partial AMP data.
          Source: OIG analysis of ASP and AMP data from the third quarter of 2008 through the third quarter of 2009.


Lowering reimbursement amounts for the 16 HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by over half a million dollars in the first quarter of 2010.
Sections 1847A(d)(3)(A) and (B) of the Act provide that the Secretary may disregard the ASP
pricing methodology for a drug with an ASP that exceeds the AMP by at least 5 percent.
Pursuant to section 1847A(d)(3)(C) of the Act, “… the Secretary shall, effective as of the next
quarter, substitute for the amount of payment … the lesser of (i) the widely available market
price … (if any); or (ii) 103 percent of the average manufacturer price ….” In this study, we
identified 16 HCPCS codes that met the 5-percent threshold specified in the Act. If
reimbursement amounts for these 16 codes with complete AMP data had been based on
103 percent of the AMPs during the first quarter of 2010, we estimate that Medicare
expenditures would have been reduced by $563,000 in that quarter alone. 18

Two of the sixteen HCPCS codes accounted for 90 percent of the estimated savings. If the
reimbursement amounts for codes J9214 and J2792 had been based on 103 percent of the AMPs
during the first quarter of 2010, Medicare expenditures would have been reduced by an estimated
$354,000 and $154,000, respectively.

Of the 99 Drug Codes With Partial AMP Data, Volume-Weighted ASPs for
10 Exceeded the Volume-Weighted AMPs by at Least 5 Percent
In addition to examining HCPCS codes with complete AMP data, we examined 99 HCPCS
codes for which only partial AMP data were available. ASPs for 10 of these 99 HCPCS codes
(10 percent) exceeded the AMPs by at least 5 percent in the third quarter of 2009. A list of the


18
  This savings estimate assumes that the number of services that were allowed by Medicare in 2008 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2008 and 2010.



OEI-03-10-00150                                                    Comparison of Third-Quarter 2009 ASPs and AMPs
Page 10 – Marilyn Tavenner


10 HCPCS codes, including their descriptions and HCPCS dosage amounts, is presented in
Appendix E.

Table 4 describes the extent to which ASPs exceeded AMPs for the 10 HCPCS codes. For half
of the codes (5 of 10), volume-weighted ASPs exceeded volume-weighted AMPs by 20 percent
or more. The ASPs for one of these codes were more than double the AMPs.
                      Table 4: Extent to Which ASPs Exceeded AMPs for
                           10 HCPCS Codes With Partial AMP Data
                           Percentage by Which ASP             Number of HCPCS
                           Exceeded AMP                                   Codes
                           5.00%–9.99%                                           5
                           10.00%–19.99%                                         0
                           20.00%–29.99%                                         1
                           30.00%–39.99%                                         0
                           40.00%–49.99%                                         1
                           50.00%–59.99%                                         1
                           60.00%–69.99%                                         1
                           70.00%–79.99%                                         0
                           80.00%–89.99%                                         0
                           90.00%–99.99%                                         0
                           100% and above                                        1
                              Total                                            10
                     Source: OIG analysis of third-quarter 2009 ASP and AMP data, 2010.


Sixty percent of HCPCS codes with partial AMP data (6 of 10) also met the 5-percent threshold
in one or more of the previous four quarters. For three HCPCS codes (J1190, Q9965 and
Q9966), ASPs exceeded AMPs in each of the five quarters under review, dating back to the third
quarter of 2008. Another HCPCS code met the 5-percent threshold in four of the five quarters
under review. Table 5 presents a list of the six HCPCS codes that were eligible for price
adjustments in previous quarters.




OEI-03-10-00150                                           Comparison of Third-Quarter 2009 ASPs and AMPs
Page 11 – Marilyn Tavenner


           Table 5: Six HCPCS Codes With Partial AMP Data in the Third Quarter of 2009
                    That Also Met the 5-Percent Threshold in Previous Quarters
                                                OIG Reports Comparing ASP and AMP
                                        Third       Second         First       Fourth         Third
                                      Quarter       Quarter      Quarter      Quarter       Quarter
                       HCPCS            2009          2009         2009          2008         2008
                       Code
                       J1190            X             X            X            X             X
                       Q9965            X             X            X            X             X
                       Q9966            X             X            X            X             X
                       J7506            X             X            X                          X
                       J7509            X             X
                       Q0163            X             X
            Note: All of these codes met the 5-percent threshold in previous quarters using partial AMP data.
          Source: OIG analysis of ASP and AMP data from the third quarter of 2008 through the third quarter of 2009.

Lowering reimbursement amounts for the 10 HCPCS codes to 103 percent of the AMPs would
have reduced Medicare allowances by an estimated $2.1 million in the first quarter of 2010. 19 One
of the ten HCPCS codes accounted for over 70 percent of the $2.1 million. If the reimbursement
amount for code Q9965 had been based on 103 percent of the AMPs during the first quarter of
2010, Medicare expenditures would have been reduced by an estimated $1.5 million.

Pricing Comparisons Could Not Be Performed on 66 Drug Codes Because No AMP Data
Were Available
For 66 HCPCS codes, OIG could not compare ASPs and AMPs because there were no AMP data
for any of the 244 NDCs that CMS used when calculating drug reimbursement amounts for these
codes. In 2008, Medicare allowances for these 66 codes totaled $304 million. 20

Manufacturers for 16 percent of the NDCs without AMP data (39 of 244) participated in the
Medicaid drug rebate program as of the third quarter of 2009 and were therefore generally
required to submit AMP data for their covered outpatient drugs. 21, 22, 23

Manufacturers for the remaining 205 of 244 NDCs did not participate in the Medicaid drug
rebate program and therefore were not required to submit AMP data.

19
   This savings estimate assumes that the number of services that were allowed by Medicare in 2008 remained
consistent from one quarter to the next and that there were no significant changes in utilization between
2008 and 2010.
20
   Of the 66 HCPCS codes with no associated AMP data, 18 had no expenditures listed in the 2008 PBAR file. As a
result, these codes were not included in the total Medicare allowances for the year.
21
   To determine whether a manufacturer participated in the Medicaid drug rebate program, we consulted the list of
participating drug companies posted on CMS’s Web site.
22
   Although manufacturers with rebate agreements are required to submit AMP data for their covered outpatient
drugs, there may be valid reasons why an AMP was not provided for a specific NDC in a given quarter. For
example, a manufacturer may not have been required to submit an AMP if the drug product had been terminated and
there was no drug utilization during the quarter.
23
   These 39 NDCs were crosswalked to 27 HCPCS codes.



OEI-03-10-00150                                                    Comparison of Third-Quarter 2009 ASPs and AMPs
Page 12 – Marilyn Tavenner


CONCLUSION

To monitor Medicare reimbursement amounts based on ASPs and consistent with sections
1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG compared ASPs and AMPs to identify
instances in which the ASP for a particular drug exceeded the AMP by at least 5 percent. This is
OIG’s 16th report comparing ASPs and AMPs, and it examines HCPCS codes with AMP data for
every NDC that CMS used to establish reimbursement amounts, as well as HCPCS codes with
only partial AMP data.

In the third quarter of 2009, we identified a total of 26 HCPCS codes that met the threshold for
price adjustment. Of these 26 HCPCS codes, 14 were previously identified by OIG as having
ASPs that exceeded the AMPs by at least 5 percent. Finally, we could not compare ASPs and
AMPs for 66 HCPCS codes because AMP data were not submitted for any of the NDCs that
CMS used to calculate reimbursement. Manufacturers for 16 percent of these NDCs had
Medicaid drug rebate agreements and were therefore generally required to submit AMPs. OIG
will continue to work with CMS to evaluate and pursue appropriate actions against those
manufacturers that fail to submit required data.

Some of OIG’s previous reports comparing ASPs and AMPs have contained recommendations,
which we continue to support. 24 We are not making additional recommendations in this report
and, as such, are issuing the report directly in final form. If you have comments or questions
about this report, please provide them within 60 days. Please refer to report number
OEI-03-10-00150 in all correspondence.




24
     For example, OEI-03-08-00450, December 2008; and OEI-03-09-00350, February 2010.



OEI-03-10-00150                                            Comparison of Third-Quarter 2009 ASPs and AMPs
Page 13 – Marilyn Tavenner


APPENDIX A

The Equation Used by the Centers for Medicare & Medicaid Services To Calculate
Volume-Weighted Average Sales Prices on or After April 1, 2008


A volume-weighted average sales price (ASP) is calculated for the dosage amount associated with
the Healthcare Common Procedure Coding System (HCPCS) code. In the following equation, the
“number of billing units” represents the number of HCPCS code doses that are contained in a
national drug code (NDC).



       Volume-Weighted ASP           Sum of (ASP for NDC * Number of NDCs Sold)
        for Dosage Amount  =
          of HCPCS Code        Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




OEI-03-10-00150                                      Comparison of Third-Quarter 2009 ASPs and AMPs
Page 14 – Marilyn Tavenner


APPENDIX B

Previous Office of Inspector General Reports Comparing Average Sales Prices and Average
Manufacturer Prices


                     Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                      Prices to Average Manufacturer Prices, OEI-03-04-00430, April 2006


                     Comparison of Fourth-Quarter 2005 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2006, OEI-03-06-00370, July 2006


                     Comparison of Third-Quarter 2006 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2007, OEI-03-07-00140, July 2007


                     Comparison of First-Quarter 2007 Average Sales Prices to Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2007, OEI-03-07-00530, September 2007


                     Comparison of Second-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2007, OEI-03-08-00010, December 2007


                     Comparison of Third-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2008, OEI-03-08-00130, May 2008


                     Comparison of Fourth-Quarter 2007 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2008, OEI-03-08-00340, August 2008


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2007, OEI-03-08-00450, December 2008



OEI-03-10-00150                                     Comparison of Third-Quarter 2009 ASPs and AMPs
Page 15 – Marilyn Tavenner


                     Comparison of First-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2008, OEI-03-08-00530, December 2008


                     Comparison of Second-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2008, OEI-03-09-00050, February 2009


                     Comparison of Third-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for First Quarter
                      2009, OEI-03-09-00150, April 2009


                     Comparison of Fourth-Quarter 2008 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Second Quarter
                      2009, OEI-03-09-00340, August 2009


                     Comparison of First-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Third Quarter
                      2009, OEI-03-09-00490, August 2009


                     Comparison of Second-Quarter 2009 Average Sales Prices and Average
                      Manufacturer Prices: Impact on Medicare Reimbursement for Fourth Quarter
                      2009, OEI-03-09-00640, January 2010


                     Comparison of Average Sales Prices and Average Manufacturer Prices: An
                      Overview of 2008, OEI-03-09-00350, February 2010




OEI-03-10-00150                                     Comparison of Third-Quarter 2009 ASPs and AMPs
Page 16 – Marilyn Tavenner


APPENDIX C

Detailed Methodology for Converting and Volume-Weighting Average Manufacturer
Prices for the Third Quarter of 2009

Healthcare Common Procedure Coding System codes with complete average manufacturer price
data. Of the 530 Healthcare Common Procedure Coding System (HCPCS) codes with
reimbursement amounts based on average sales prices (ASP), 364 had average manufacturer
prices (AMP) for every national drug code (NDC) that the Centers for Medicare & Medicaid
Services (CMS) used to calculate volume-weighted ASPs. These 364 HCPCS codes represented
1,487 NDCs. For 10 NDCs, we could not successfully identify the amount of the drug reflected
by the ASP and therefore could not calculate a converted AMP. These 10 NDCs were
crosswalked to eight HCPCS codes. We did not include these eight HCPCS codes (62 NDCs) in
our final analysis.

Using the converted AMPs for the remaining 1,425 NDCs, we then calculated a volume-
weighted AMP for each of the remaining 356 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.

HCPCS codes with partial AMP data. There were 100 HCPCS codes with AMP data for only
some of the NDCs that CMS used in its calculation of volume-weighted ASPs. These
100 HCPCS codes represented a total of 1,520 NDCs. AMP data were either missing or
unavailable for 523 of these NDCs, which were then excluded from our calculation of
volume-weighted AMPs. 25

We calculated converted AMPs for each of the remaining 997 NDCs. For 10 of the
997 NDCs, we could not successfully identify the amount of the drug reflected by the ASP and
therefore could not calculate a converted AMP. We removed these 10 NDCs from our
analysis. 26 As a result, one HCPCS code no longer had any NDCs with AMP data. Therefore,
this HCPCS code was removed from our analysis.

Using the converted AMPs for the remaining 987 NDCs, we then calculated a
volume-weighted AMP for each of the remaining 99 HCPCS codes consistent with CMS’s
methodology for calculating volume-weighted ASPs.




25
   Although AMP data for these 523 NDCs were excluded from our calculation of volume-weighted AMPs, the
corresponding ASPs were not excluded from the volume-weighted ASPs as determined by CMS.
Volume-weighted ASPs remained the same, regardless of the availability of AMP data.
26
   Although we removed NDCs with problematic AMP conversions, we did not remove the corresponding HCPCS
codes, provided that other NDCs for those drug codes had usable AMP data. This differs from our analysis of
HCPCS codes with complete AMP data, in which we removed not only the NDCs with problematic AMP
conversions, but also the corresponding HCPCS codes.



OEI-03-10-00150                                           Comparison of Third-Quarter 2009 ASPs and AMPs
Page 17 – Marilyn Tavenner


HCPCS codes with no AMP data. For 66 HCPCS codes, there were no AMP data for any of the
NDCs that CMS used in its calculation of volume-weighted ASPs. These 66 HCPCS codes
represented 244 NDCs.




OEI-03-10-00150                               Comparison of Third-Quarter 2009 ASPs and AMPs
Page 18 – Marilyn Tavenner


APPENDIX D

Sixteen Drug Codes With Complete Average Manufacturer Price Data That Met the
5-Percent Threshold in the Third Quarter of 2009


          Drug
          Code                                                      Short Description        Drug Code Dosage
          J0210                                            Methyldopate HCl injection                     250 mg

          J0476                                  Baclofen injection for intrathecal trial                 50 mcg

          J0560                                       Penicillin g benzathine injection             600,000 units

          J1327                                                   Eptifibatide injection                      5 mg

          J1364                                             Erythromycin lactobionate                     500 mg

          J2597                                       Desmopressin acetate injection                          1 mcg

          J2765                                         Metoclopramide HCl injection                          10 mg

          J2792                                               Rho(D) immune globulin                    100 units

          J2993                                                    Reteplase injection                    18.1 mg

          J3470                                                Hyaluronidase injection                  150 units

          J7606                              Formoterol fumarate, inhalation solution                     20 mcg

          J9155                                                     Degarelix injection                        1 mg

          J9214                                             Interferon alfa-2b injection            1 million units

          J9340                                                      Thiotepa injection                       15 mg

          Q0166                                                   Granisetron HCl oral                         1 mg

          Q0171                                              Chlorpromazine HCl oral                          10 mg

         Source: Office of Inspector General analysis of third-quarter 2009 average sales price and average
         manufacturer price data, 2010.




OEI-03-10-00150                                                    Comparison of Third-Quarter 2009 ASPs and AMPs
Page 19 – Marilyn Tavenner


APPENDIX E

Ten Drug Codes With Partial Average Manufacturer Price Data That Met the
5-Percent Threshold in the Third Quarter of 2009


          Drug
          Code                                                    Short Description          Drug Code Dosage
          J1190                                           Dexrazoxane HCl injection                       250 mg

          J1885                                     Ketorolac tromethamine injection                          15 mg

          J2700                                             Oxacillin sodium injection                    250 mg

          J7506                                                      Prednisone oral                           5 mg

          J7509                                              Methylprednisolone oral                           4 mg

          J7613                                           Albuterol non-compounded                             1 mg

          Q0163                                                Diphenhydramine HCl                            50 mg

          Q0170                                               Promethazine HCl oral                           25 mg

          Q9965                 Low osmolar contrast material,100-199 mg/mL iodine                             1 ml

          Q9966                 Low osmolar contrast material, 200-299 mg/mL iodine                            1 ml

         Source: Office of Inspector General analysis of third-quarter 2009 average sales price and average
         manufacturer price data, 2010.




OEI-03-10-00150                                                  Comparison of Third-Quarter 2009 ASPs and AMPs
